<html>
<title> - THE COMMERCIAL CREW PROGRAM: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      THE COMMERCIAL CREW PROGRAM:
                      CHALLENGES AND OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2015

                               __________

                            Serial No. 114-9

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-887 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, Texas
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                         Subcommittee on Space

                HON. STEVEN PALAZZO, Mississippi, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland,
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
STEVE KNIGHT, California             EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                           February 27, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    14

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

                               Witnesses:

Mr. Bill Gerstenmaier, Associate Administrator, Human Exploration 
  and Operations Mission Directorate, National Aeronautics and 
  Space Administration (NASA)
    Oral Statement...............................................    17
    Written Statement............................................    19

Vice Admiral Joseph Dyer, USN (Ret.), Chairman, Aerospace Safety 
  Advisory Panel, National Aeronautics and Space Administration 
  (NASA)
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. John Mulholland, Vice President and Program Manager, 
  Commercial Programs, The Boeing Company
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Garrett Reisman, Director, Crew Operations, Space Exploration 
  Technologies Corporation
    Oral Statement...............................................    46
    Written Statement............................................    47

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

Mr. Bill Gerstenmaier, Associate Administrator, Human Exploration 
  and Operations Mission Directorate, National Aeronautics and 
  Space Administration (NASA)....................................    82

Vice Admiral Joseph Dyer, USN (Ret.), Chairman, Aerospace Safety 
  Advisory Panel, National Aeronautics and Space Administration 
  (NASA).........................................................   123

Mr. John Mulholland, Vice President and Program Manager, 
  Commercial Programs, The Boeing Company........................   137

Dr. Garrett Reisman, Director, Crew Operations, Space Exploration 
  Technologies Corporation.......................................   151

            Appendix II: Additional Material for the Record

Prepared statement submitted by Representative Eddie Bernice 
  Johnson, Ranking Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   166

 
                      THE COMMERCIAL CREW PROGRAM:
                     CHALLENGES AND OPPORTUNITIES

                              ----------                              


                       FRIDAY, FEBRUARY 27, 2015

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Palazzo. The Subcommittee on Space will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time. Good morning. Welcome 
to today's hearing, entitled ``The Commercial Crew Program: 
Challenge and Opportunities''. In front of you are packets 
containing the written testimony, biographies, and truth-in-
testimony disclosures for today's witnesses. I recognize myself 
for five minutes for an opening statement.
    I would like to welcome everyone to our hearing today, and 
I want to thank our witnesses for taking time to appear before 
the Committee. Today's hearing is a review of the Commercial 
Crew Program at NASA. This program holds the promise of 
tremendous value for both the taxpayer and the contractors, as 
long as the program is executed appropriately.
    Last year NASA chose two partners to continue through the 
final phase of the program, Boeing and SpaceX. Known as CCtCap, 
or Commercial Crew Transportation Capability, this final phase 
will provide funding for the partners to complete testing of 
their systems. This is a critical phase in our Nation's efforts 
to develop and sustain assured U.S. human access to low-Earth 
orbit. To date, Congress and the Administration have not been 
able to reach consensus on the most efficient way to meet 
NASA's launch requirements. However, the promise of this 
capability, and new contracting structure, has allowed for 
guarded optimism.
    The NASA Authorization Act of 2008 directed NASA to engage 
the private sector for access to the International Space 
Station, so long as it did not come at the expense of NASA's 
other exploration development programs. Similarly, the NASA 
Authorization Act of 2010 continued this direction, including 
reporting requirements related to safety, and directed NASA to 
ensure that the Orion vehicle was able to provide alternative 
means of delivering crew to the ISS in the event that partner 
supplied vehicles are unable to perform that function. NASA has 
done a lot to move the industry along in compliance with these 
laws. They have provided funding for early stage development, 
funding to mature spacecraft designs, funding to certify those 
designs, and ultimately they will provide a steady customer 
through the ISS program.
    Previous testimony before this committee indicated that 
taxpayers will fund roughly 90 percent of the development of 
these capabilities, and then in turn pay once again for the 
services derived from those capabilities. In total, NASA has 
spent, or plans to spend, over $8 billion on this initiative, 
which I believe represents a necessary investment, if managed 
effectively. In order to protect taxpayer interests, however, 
this level of investment by the taxpayer requires a similar 
level of transparency and accountability. To that end, it was 
concerning to read some of the findings made by the Aerospace 
Safety Advisory Panel, also known as ASAP, in its annual report 
this year. The ASAP is congressionally chartered to examine the 
culture of safety at NASA. It is required to provide advice to 
Congress, and to the administrator, measures that can be taken 
to improve safety at the agency.
    This year, the ASAP was not able to complete their job 
insofar as it pertains to the Commercial Crew Program. 
According to the report, the Director of Commercial Space 
Flight Development at NASA has provided excuses instead of 
information. This is described by the panel as a seamless set 
of constraints as to why information cannot be shared. 
Similarly, the report states this opacity and failure to engage 
in open and transparent communication is reminiscent of the 
problems that were explicitly identified by both the Rogers 
Commission and the Columbia Accident Investigation Board 
regarding causes of the Space Shuttle Challenger and Columbia 
mishaps, respectively. Unfortunately, this committee 
experienced similar issues when it attempted to get information 
on this program over the last year and a half.
    I want to be crystal clear to our witnesses here today, and 
to the Administration, denying information to ASAP or Congress 
about the Commercial Crew Program is unacceptable when the 
hardworking American taxpayers are footing the bill for the 
program, and the safety of our astronauts is on the line. 
Congress and the American people deserve to have answers to the 
questions posed by ASAP. I am pleased to hear that NASA is now 
being more open, and I hope this trend continues.
    Aside from the issues raised in the ASAP report, NASA must 
also address several outstanding questions as the program 
advances. The decision to use the Federal Acquisition 
Regulations to issue contracts for the final phase of the 
program was a welcome step from the Administration, and one 
that I endorse, but how will waivers to safety requirements 
from the Certification Products Contract phase be evaluated and 
issued? Given the delays in the Commercial Cargo Program, how 
will NASA maintain schedule discipline under the current crew 
contracts? Why can't a scaled back Orion launched on a Delta IV 
Heavy provide a redundant capability and competition to the 
Commercial Crew Program? What level of price competition exists 
in the program, now that we know the contractors' bids?
    I raise these questions because I want the program to be 
successful. In these difficult budgetary times, NASA must 
concentrate its limited resources on meeting its core 
requirements, one of those being domestic human access to low-
Earth orbit. I truly believe that we can come together to 
address these concerns in a constructive, bipartisan way so 
that we can once again launch American astronauts on American 
rockets from American soil. I look forward to hearing from our 
witnesses today.
    [The prepared statement of Mr. Palazzo follows:]

              Prepared Statement of Subcommittee on Space
                        Chairman Steven Palazzo

    Good morning. I would like to welcome everyone to our hearing today 
and I want to thank our witnesses for taking time to appear before the 
Committee.
    Today's hearing is a review of the Commercial Crew Program at NASA. 
This program holds the promise of tremendous value for both the 
taxpayer and the contractors, as long as the program is executed 
appropriately.
    Last year, NASA chose two partners to continue through the final 
phase of the program, Boeing and SpaceX. Known as CCtCap (Commercial 
Crew Transportation Capability), this final phase will provide funding 
for the partners to complete testing of their systems. This is a 
critical phase in our nation's efforts to develop and sustain assured 
U.S. human access to low-Earth orbit. To date, Congress and the 
Administration have not been able to reach consensus on the most 
efficient way to meet NASA's launch requirements. However, the promise 
of this capability and new contracting structure has allowed for 
guarded optimism.
    The NASA Authorization Act of 2008 directed NASA to engage the 
private sector for access to the International Space Station (ISS) so 
long as it did not come at the expense of NASA's other exploration 
development programs. Similarly, the NASA Authorization Act of 2010 
continued this direction, included reporting requirements related to 
safety, and directed NASA to ensure that the Orion vehicle was able to 
provide alternative means of delivering crew to the ISS in the event 
that partner-supplied vehicles are unable to perform that function.
    NASA has done a lot to move the industry along in compliance with 
these laws. They have provided funding for early stage development, 
funding to mature spacecraft designs, funding to certify those designs, 
and ultimately they will provide a steady customer through the ISS 
program. Previous testimony before this Committee indicated that the 
taxpayer will fund roughly 90 percent of the development of these 
capabilities and then in-turn pay once again for the services derived 
from those capabilities. In total, NASA has spent, or plans to spend, 
over 8 billion dollars on this initiative, which I believe represents a 
necessary investment if managed effectively. In order to protect 
taxpayer interests, however, this level of investment by the taxpayer 
requires a similar level of transparency and accountability.
    To that end, it was concerning to read some of the findings made by 
the Aerospace Safety Advisory Panel (ASAP) in its annual report this 
year. The ASAP is congressionally-chartered to examine the culture of 
safety at NASA. It is required to provide advice to Congress and to the 
Administrator on measures that can be taken to improve safety at the 
agency. This year, the ASAP was not able to complete their job insofar 
as it pertains to the Commercial Crew Program. According to the report, 
the Director of Commercial Spaceflight Development at NASA has provided 
excuses instead of information. This is described by the panel as a 
``seamless set of constraints as to why information cannot be shared.'' 
Similarly, the report states ``This opacity and failure to engage in 
open and transparent communication is reminiscent of the problems that 
were explicitly identified by both the Rogers Commission and the 
Columbia Accident Investigation Board (CAIB) regarding causes of the 
Space Shuttle Challenger and Columbia mishaps respectively." 
Unfortunately, this Committee experienced similar issues when it 
attempted to get information on this program over the last year and a 
half.
    I want to be crystal clear to our witnesses here today and to the 
Administration. Denying information to ASAP, or Congress, about the 
Commercial Crew Program is unacceptable when the hardworking American 
taxpayers are footing the bill for the program and the safety of our 
astronauts is on the line. Congress and the American people deserve to 
have answers to the questions posed by ASAP. I am pleased to hear that 
NASA is now being more open and I hope this trend continues.
    Aside from the issues raised in the ASAP report, NASA must also 
address several outstanding questions as the program advances. The 
decision to use the Federal Acquisition Regulations to issue contracts 
for the final phase of the program was a welcome step from the 
Administration, and one that I endorsed, but how will waivers to safety 
requirements from the Certification Products Contracts phase be 
evaluated and issued? Given the delays in the commercial cargo program, 
how will NASA maintain schedule discipline under the current crew 
contracts? Why can't a scaled-back Orion launched on a Delta IV Heavy 
provide a redundant capability and competition to the commercial crew 
program? What level of price competition exists in the program now that 
we know the contractor's bids?
    I raise these questions because I want the program to be 
successful. In these difficult budgetary times, NASA must concentrate 
its limited resources on meeting its core requirements - one of those 
being domestic human access to low-earth orbit. I truly believe that we 
can come together to address these concerns in a constructive 
bipartisan way so that we can once again launch American Astronauts on 
American Rockets, from American soil.
    I look forward to hearing from our witnesses today.

    Chairman Palazzo. I now recognize the Ranking Member, Ms. 
Edwards, for an opening statement.
    Ms. Edwards. Thank you, Mr. Chairman, and, of course, for 
as much time as I might consume, given that the clock was not 
running during your time. Good morning, and welcome to our 
distinguished panel of witnesses.
    Mr. Chairman, I thank you for calling this hearing on the 
Commercial Crew Program, and the challenges and opportunities. 
There is no denying that NASA and its commercial partners have 
taken great strides since commercial crew activities began 
about five years ago.
    Last fall NASA, in partnership with two companies, Space 
Exploration Technologies--SpaceX--and the Boeing Corporation, 
established contracts to finalize designs, undertake full 
development, and carry out the milestones needed to complete 
NASA certification requirements to carry NASA, and NASA 
sponsored astronauts, to and from the International Space 
Station.
    As I have recounted on other occasions, I used to be a 
skeptic of commercial crew and cargo transportation to support 
NASA requirements. I have evolved, but I still have questions. 
And while I am now supportive of the program, and industry's 
partnership with NASA, I remain committed to ensuring that 
these systems are safe. And as the title of the hearing states, 
there are both challenges and opportunities ahead.
    First, the Commercial Cargo Transportation Program that is 
currently underway sheds light on some of those challenges. 
Initial operational flight showed up significantly later than 
initially anticipated, and a mishap last fall reminds us all 
that space flight, even in 2015, is indeed risky and hard, and 
when humans are involved, the stakes are immeasurably higher.
    Secondly, as we will hear from Vice Admiral Dyer, and I--
the concern that I share with the Chairman, the Commercial Crew 
Program's approach is to buy the commercial crew services, 
rather than make or manage a development program. This paradigm 
shift carries risks in and of itself, given that the services 
to be bought don't yet exist. In addition, the Aerospace Safety 
Advisory Panel--ASAP--which Vice Admiral Dyer chairs, has 
raised concerns about the transparency of the program in 
providing the panel, and Congress, with the information it 
needs to evaluate safety. As you know, Mr. Chairman, safety 
has, and will continue to be, a priority of this committee, and 
the NASA Authorization Act of 2015, I would add, the bipartisan 
Act passed by the House, directs that safety be the highest 
priority of the Commercial Crew Program.
    Third, NASA is requesting $1.2 billion for the Commercial 
Crew Program for Fiscal Year 2016. That is an increase of over 
$400 million from the Fiscal Year 2015 enacted level. However, 
the Committee, despite having asked, has no independent 
external analysis by which to evaluate whether NASA's budget 
requests for the Commercial Crew Program are on target, and 
whether the amount the taxpayers are being asked to pay is too 
much, too little, or about right. We don't have any 
information. The NASA Authorization Act of 2015, again, directs 
NASA to provide that analysis. And while that isn't law yet, it 
is clear that, from a bipartisan perspective, we expect the 
Committee to be provided with that information.
    I want NASA and its commercial partners to succeed so that 
NASA and the nation will regain human space flight access to 
low-Earth orbit once again. And I also want to understand what 
taxpayers are paying for, and the terms and the conditions 
involved. In particular, I look forward to hearing from our 
witnesses about several questions. One, how will NASA--SpaceX--
and Boeing ensure safety and a safety culture throughout the 
development process in the operational space flights, once they 
are certified? What contingency plans will be in place, should 
commercial systems not be available by the anticipated 2017 
date, or should one provider need to stand down for an extended 
period of time? What is needed to appropriately communicate the 
risks involved in commercial human space flights to Congress, 
the public, and other stakeholders? And what are the policies 
in place for cost reimbursement, liability, and risk assumption 
regarding individual passengers that contractors could 
potentially carry on NASA sponsored missions to the ISS?
    Before I close, Mr. Chairman, I want to note that, while 
the Commercial Crew Program is important, I hope that this 
committee will have the opportunity to discuss all of NASA's 
programs and plans that comprise its $18 billion budget request 
for Fiscal Year 2016. I think we need to continue our tradition 
of inviting the NASA administrator to come in and testify on 
the agency's budget request, and I hope we can lock in a 
hearing in the near future.
    Thank you, and I yield the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good Morning, and welcome to our distinguished panel of witnesses. 
Mr. Chairman, thank you for calling this hearing on The Commercial Crew 
Program: Challenges and Opportunities.
    There is no denying that NASA and its commercial partners have 
taken great strides since commercial crew activities began about five 
years ago. Last Fall, NASA in partnership with two companies--Space 
Exploration Technologies and The Boeing Corporation-established 
contracts to finalize designs, undertake full development, and carry 
out the milestones needed to complete NASA's certification requirements 
to carry NASA and NASA-sponsored astronauts to and from the 
International Space Station.
    As I have recounted on other occasions, I used to be a skeptic of 
commercial crew and cargo transportation to support NASA requirements. 
And while I am now supportive of the commercial space transportation 
industry's partnership with NASA, I remain committed to ensuring that 
these systems are safe.
    As the title of the hearing states, there are both challenges and 
opportunities ahead. First, the commercial cargo transportation program 
that is currently underway sheds light on some of those challenges. 
Initial operational flights showed up significantly later than 
initially anticipated and a mishap last Fall reminds us that 
spaceflight is indeed risky and hard. When humans are involved, the 
stakes are immeasurably higher.
    Secondly, as we'll hear from Admiral Dyer, the commercial crew 
program's approach is to ``buy'' the commercial crew services rather 
than make or manage a development program. This paradigm shift carries 
risk in and of itself, given that the services to be bought don't yet 
exist. In addition, the Aeronautics Safety Advisory Panel--ASAP--which 
Admiral Dyer chairs, has raised concerns about the transparency of the 
program in providing the Panel with the information it needs to 
evaluate safety. As you know, Mr. Chairman, safety has and will 
continue to be a priority of this Committee, and the NASA Authorization 
Act of 2015 directs that safety be the highest priority of the 
commercial crew program.
    Third, NASA is requesting $1.2 billion for the Commercial Crew 
Program for Fiscal Year 2016, an increase of over $400 million from the 
FY 2015 enacted level. However, the Committee, despite having asked, 
has no independent external analysis by which to evaluate whether 
NASA's budget requests for the commercial crew program are on target, 
and whether the amount the taxpayers are being asked to pay is too 
much, too little, or about right. The NASA Authorization Act of 2015 
directs NASA to provide that analysis.
    I want NASA and its commercial partners to succeed so that NASA and 
the nation will regain human spaceflight access to low-Earth orbit once 
again.
    Yet I also want to understand what the taxpayers are paying for and 
the terms and conditions involved. In particular, I look forward to 
hearing from our witnesses about:

    <bullet>  How will NASA, SpaceX, and Boeing ensure safety and a 
safety culture throughout the development process and the operational 
spaceflights, once they are certified?

    <bullet>  What contingency plans will be in place should commercial 
systems not be available by the anticipated 2017 date, or should one 
provider need to stand down for an extended period of time?

    <bullet>  What is needed to appropriately communicate the risks 
involved in commercial human spaceflight to Congress, the public, and 
other stakeholders?

    <bullet>  And what are the policies in place for cost 
reimbursement, liability, and risk assumption regarding individual 
``passengers'' that contractors could potentially carry on NASA 
sponsored missions to the ISS?

    Before I close, Mr. Chairman, I would like to note that while the 
Commercial Crew Program is important, I hope that this Committee will 
also have the opportunity to discuss all of NASA's programs and plans 
that comprise its $18 billion budget request for FY 2016. I think we 
need to continue our tradition of inviting the NASA Administrator to 
come in and testify on the agency's budget request, and I hope we can 
lock in such a hearing in the near future.
    Thank you and I yield back the balance of my time.

    Chairman Palazzo. Thank you, Ms. Edwards. I now recognize 
the Chairman of the full Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. America has always 
been a Nation of innovators and explorers. We continue to 
remain on the forefront of new discoveries and technologies. 
Our history is filled with examples of entrepreneurs who pushed 
the boundaries of the possible. The Commercial Crew Program 
offers a new way to develop human rated systems for government 
access to space, with the goal, of course, of ending our 
dependence on Russia. Building on the Commercial Cargo Program 
could be an important change from traditional programs, but 
only if it is done correctly. Today the Subcommittee will 
examine the progress made in the Commercial Crew Program. This 
committee is dedicated to ensuring the government has safe, 
reliable, and affordable access to low-Earth orbit.
    The U.S. currently pays Russia $70 million a seat for 
access to the International Space Station. It should be a top 
priority to launch American astronauts on American rockets from 
American soil as soon as possible. American astronauts 
personify our nation's pioneering spirit. They represent our 
leadership, as explorers, and agents of discovery. A great deal 
of trust has been placed in the commercial crew partners, 
Boeing and SpaceX, that are partnering with NASA to take our 
astronauts into space. This is an extraordinary responsibility 
for these companies. It is one that cannot be taken lightly.
    It is absolutely imperative that we understand the gravity 
of what it means to carry our astronauts into space. This 
committee will continue to monitor whether the Commercial Crew 
Program will ensure safety, while also respecting cost and 
schedule constraints. We can only do this if NASA is open and 
transparent about the program. The Aerospace Safety Advisory 
Panel's recent report highlights questions about NASA's level 
of transparency. The Committee has encountered similar issues 
as well. For the sake of all who are working to make this 
program a success, I hope this will change.
    I look forward to hearing from our witnesses today about 
their progress on these systems, and their ongoing relationship 
with NASA. Their insights into the program are invaluable to 
us. The commercial space industry offers improvements to the 
quality of life for every person on the planet. The discoveries 
and applications that have come from space technology are 
numerous. Since the dawn of the Space Age, contractors and the 
private sector have played a central role in making our 
nation's aspirations a reality. The commercial space industry 
will ensure that America remains a world leader in space 
exploration.
    Thank you, Mr. Chairman, and I will yield back.
    [The prepared statement of Mr. Smith follows:]

                  Prepared Statement of Full Committee
                        Chairman Lamar S. Smith

    Thank you Chairman Palazzo for holding this hearing. And I thank 
the witnesses for being here to share their expertise. America has 
always been a nation of innovators and explorers. We continue to remain 
on the forefront of new discoveries and technologies. Our history is 
filled with examples of entrepreneurs who pushed the boundaries of the 
possible.
    The Commercial Crew Program offers a new way to develop human-rated 
systems for government access to space with the goa, of course, of 
ending our dependence on Russia. Building on the Commercial Cargo 
Program could be an important change from traditional programs, but 
only if it is done correctly.
    Today the subcommittee will examine the progress made in the 
Commercial Crew program. This Committee is dedicated to ensuring the 
government has safe, reliable, and affordable access to low-Earth 
orbit.
    The U.S. currently pays Russia $70 million a seat for access to the 
International Space Station. It should be a top priority to launch 
American astronauts on American rockets from America soil as soon as is 
safely possible.
    American astronauts personify our nation's pioneering spirit. They 
represent our leadership as explorers and agents of discovery. A great 
deal of trust has been placed in the commercial crew partners--Boeing 
and SpaceX--that are partnering with NASA to take our astronauts into 
space. This is an extraordinary responsibility for these companies. It 
is one that cannot be taken lightly.
    It is absolutely imperative that we understand the gravity of what 
it means to carry our astronauts into space. This committee will 
continue to monitor whether the Commercial Crew Program will ensure 
safety while also respecting cost and schedule constraints.
    We can only do this if NASA is open and transparent about the 
program. The Aerospace Safety Advisory Panel's recent report highlights 
issues with NASA's level of transparency.
    This Committee has encountered similar issues as well. For the sake 
of all who are working to make this program a success, I hope this will 
change going forward.
    I look forward to hearing from our witnesses today about their 
progress on these systems and their ongoing relationship with NASA. 
Their insights into the program are invaluable to us.
    The commercial space industry offers improvements to the quality of 
life for every person on the planet.
    The discoveries and applications that have come from space 
technology are numerous. Since the dawn of the Space Age, contractors 
and the private sector have played a central role in making our 
nation's aspirations a reality.
    The commercial space industry will ensure that America remains a 
world leader in space exploration.
    Thank you Mr. Chairman, I yield back.

    Chairman Palazzo. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    At this time I would like to introduce our witnesses. Mr. 
Bill Gerstenmaier is the Associate Administrator for the Human 
Exploration and Operations Mission Directorate at NASA. Vice 
Admiral Joseph Dyer is the Chairman of NASA's Aerospace Safety 
Advisory Panel, or ASAP. Mr. John Mulholland is the Vice 
President and Program Manager of Commercial Programs at the 
Boeing Company. And Dr. Garrett Reisman is Director of Crew 
Operations at the Space Exploration Technologies Corporation, 
or SpaceX.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made part of the record.
    I now recognize Mr. Gerstenmaier for five minutes to 
present his testimony.

              TESTIMONY OF MR. BILL GERSTENMAIER,

                    ASSOCIATE ADMINISTRATOR,

                HUMAN EXPLORATION AND OPERATIONS

                      MISSION DIRECTORATE,

      NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Mr. Gerstenmaier. Thank you very much for allowing me to 
represent the teams that are heavily involved in the 
development of the crew transportation systems that will end 
our sole reliance on the Russian Soyuz for transportation to 
the ISS. This is a very important hearing, and a very important 
capability for the United States.
    NASA has made tremendous progress in developing these 
capabilities. The work began under Space Act Agreements looking 
at generic capability, and transitioned to contracts for crew 
transportation to the ISS. The first phase of the Contract 
Certification Products, made tremendous progress in 
establishing clear requirements for the commercial providers at 
NASA. During this phase, the providers submitted alternate 
standards, hazard reports, certification plans, and 
verification plans for their crew transportation systems. The 
products were developed by the contractors, and heavily 
reviewed by NASA. It is important that this phase allowed the 
contractors to use their expertise and best practices, and 
submit alternate ways of developing and designing spacecraft 
using the latest standards.
    I added two pie charts to my written testimony to highlight 
the significant amount and quality of work accomplished during 
this phase. The first pie chart shows the agency was able to 
accept 55 percent of the alternate standards as meeting or 
exceeding NASA's requirements. NASA only rejected five percent 
of the alternate standards proposed, but there is still open 
work to be done with the remaining 30 percent that were 
partially approved.
    The second chart shows the variances. These are items where 
the contractors proposed an alternate method for hazard 
control, certification, or verification. This chart shows a 
significant amount of open work, with 53 percent of the 
variances needing additional definition and discussion. I see 
this as a big plus, and it allows the teams to know, prior to 
contract start, areas that will need work. It also is an area 
that we need to focus on and work over the next several weeks. 
This chart answers one of the Committee's pre-hearing 
questions, open work and risks. The work in preparation for the 
CCtCaP award has enabled the teams to understand the designs 
and risk areas, and will be a big advantage in achieving a safe 
system for crew transportation. Technically, the contract is 
off to a very good start, however, development and flight of 
these systems will be complex and difficult activity for the 
teams.
    The Commercial Crew Program has not received the funding 
requested in annual budgets. This underfunding has caused 
delays in program execution, and in past, forced NASA to 
continuous Space Act Agreements, as opposed to contracts, 
because of funding uncertainty. The budget appropriated in 2015 
by Congress showed a commitment to the program, and allowed the 
agency to proceed with the current contracts. This 
Congressional support is greatly appreciated, and the program 
hopes to earn Congressional approval for the solid budget 
request that we have made in 2016. The budget request is 
anchored by negotiated firm-fixed-price contracts. Funding at 
these levels is required to end our sole reliance on Russians 
for crew transportation in a safe and timely manner.
    In summary, the awarding of the contracts establishes the 
start of a new phase. Significant real progress continues to be 
made, as evidenced by the testimonies from Boeing and SpaceX. 
Despite the protested award, which limited communication, and 
made for a difficult contract start, work continued, and is 
accelerating. The decision, just like two contracts, was not an 
easy or trivial decision. The decision was carefully evaluated 
at contract selection, and the benefits of competition during 
the development phase was seen as necessary to allow for safe, 
timely, and cost-effective development. The decision was not 
simply to have competition, but was based on evaluating the 
details of the proposals, and making a selection decision that 
would provide best value to the U.S. government.
    Developing new low-Earth orbit human transportation systems 
will not be an easy task. There will be challenges, and 
difficult decisions will need to be made. The entire agency, 
safety, engineering, crew health and safety organizations are 
actively engaged in this program. The support and interaction 
with the Aerospace Safety Advisory Panel (ASAP) will also be 
critical and important. The agency is working well with the 
FAA, and support for legislation on the government astronaut 
definition will be needed. The ISS will get a tremendous 
research benefit, 100 percent increase in crew research 
time,from the additional on orbit crew member provided by the 
system.
    The Commercial Crew Transportation Program will take us all 
working together to ensure the next generation of U.S. LEO crew 
transportation systems are developed effectively and safely. 
Congressional support is absolutely required to develop safe 
and timely crew transportation systems. I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Palazzo. Thank you, Mr. Gerstenmaier.
    Now recognize Vice Vice Admiral Dyer for five minutes to 
present his testimony.

             TESTIMONY OF VICE ADMIRAL JOSEPH DYER,

                     USN (RET.), CHAIRMAN,

                AEROSPACE SAFETY ADVISORY PANEL,

      NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Vice Admiral Dyer. Thank you, Mr. Chairman, Ranking Member, 
Members of the Subcommittee. Thank you for the opportunity to 
discuss the Aerospace Safety Advisory Panel's 2014 activities 
and annual report. Mr. Chairman, I have limited the scope of my 
testimony to focus on the Commercial Crew Program. Ms. Edwards, 
I would note that both the Chairman and I are Southerners, and 
I would hope the clock wouldn't run during my testimony either.
    The ASAP salutes NASA on the many accomplishments achieved 
during 2014. Among others, these include safe International 
Space Station operations, growing traction on the ESD program, 
and success in supporting ISS logistics via commercial cargo. 
The leadership and program management of the ISS is highlighted 
for its openness, transparency, and candor. The ISS culture is, 
we believe, a space flight exemplar.
    In our 2014 report to the NASA administrator and the 
Congress, we noted that NASA is experienced and accomplished in 
space system procurement by making, managing, and buying. An 
example of making is a NASA custom produced satellite. An 
example of managing is a launch vehicle where NASA manages 
fulfillment of a performance spec often designed and generally 
produced by a contractor. An example of buying would be a 
commercial satellite launch service from a marketplace that has 
already established the bona fides of value, safety, and 
reliability.
    The CCP program falls into a chasm between the deep insight 
of managing and that of buying a product already proven by 
broad market acceptance. With CCP NASA is operating at arm's 
length, and within a constrained budget. They are attempting to 
approach commercial crew transportation as buying a service, 
yet the maturity of the product may be more suitable for a 
managed development. Nevertheless, NASA is making laudable 
efforts to embrace this new model, but is trapped somewhere on 
a continuum between managing and buying.
    The panel strongly believes that communications and 
transparency are necessary to ensure safety must be a central 
part of the program. Regrettably, the panel has been unable to 
offer any informed opinion regarding the adequacy of 
certification, or the sufficiency of safety in the Commercial 
Crew Program due to constraints placed on our access to needed 
information. Within CCP, candid, timely and transparent 
information has been insufficient. The lack of transparency has 
been a concern for a number of years, despite the discussions 
with the Director of Commercial Space Development, and with 
senior NASA officials at headquarters.
    Those sets of constraints, Mr. Chairman, which you 
addressed as well, included a seamless series that began with 
the acquisition strategy, is still being addressed, therefore, 
it can't be discussed. That information is pre-decisional. 
Responses had said the incident investigation is still being 
conducted, and we are not prepared to address. Next was that it 
was source selection sensitive, and lastly, a protest has been 
filed, and we are unable to address.
    All these statements are true, but these should not have 
been absolute barriers to the sharing of information. The 
responses by the director have been a compilation of all the 
reasons information was withheld, rather than figuring out how 
to make things work. The ASAP members are, after all, special 
government employees. The panel is concerned that the lack of 
candor is not limited to interactions with the ASAP, but may 
extend to other internal and external stakeholders. This issue 
is reminiscent, we believe, of problems identified by both the 
Rogers Commission and the CAIB. NASA knows how to work in an 
open and transparent manner, and, as noted, the ISS is a great 
example. Going forward into 2015, the administrator has 
committed to making the changes necessary to resolve the 
situation.
    Two other quick topics, Mr. Chairman, if I may? I would 
like to address budget and constancy of purpose. With regard to 
budget, the panel believes it is critically important to 
sustain sufficient funding for the CCP program to sustain 
competition. With regard to constancy of purpose, the panel 
notes that many NASA human space flight programs that have been 
initiated in the last 20 years have not been carried to 
completion. The ASAP appeals for constancy of purpose, and 
notices that the objective is both important and challenging 
when there is a change in leadership at the Congress or the 
White House. Thank you, Mr. Chairman.
    [The prepared statement of Vice Vice Admiral Dyer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Palazzo. Thank you, Vice Admiral Dyer.
    I now recognize Mr. Mulholland for five minutes to present 
his testimony.

               TESTIMONY OF MR. JOHN MULHOLLAND,

              VICE PRESIDENT AND PROGRAM MANAGER,

            COMMERCIAL PROGRAMS, THE BOEING COMPANY

    Mr. Mulholland. Chairman Palazzo, Ranking Member Edwards, 
welcome, Chairman Smith, Members of the Committee, on behalf of 
the Boeing Company, thank you for the opportunity to provide an 
update on Boeing's commercial crew transportation system. We 
are honored to be part of NASA's Commercial Crew Program to 
provide safe and reliable crew transportation to support the 
International Space Station mission. Boeing is the only 
provider to have closed NASA's commercial crew integrated 
capability contract on time, and to complete a successful 
critical design review. With that, we have laid the framework 
for completing our design during the current phase of the 
program, which was awarded last September.
    Boeing's approach is a full service system, providing all 
elements needed to transport crew and cargo to and from low-
Earth orbit, including the CST-100 spacecraft, spacecraft and 
launch vehicle integration and test, crew training and mission 
planning, cargo integration, mission operations, and crew and 
cargo recovery. In developing the Boeing system, we apply our 
unique integrated approach to meet NASA's human rating 
requirements, leveraging our space shuttle and ISS program 
experience and tools, along with our certification products, 
which are approved by NASA during the certification products 
contract. We continue to work diligently to maintain our 
planned schedule, completing the first two schedule milestones 
on time, and the first two of the next three part milestone.
    We have made significant progress the first four months of 
the program. We have procured four Atlas V launch vehicles from 
United Launch Alliance for our two certification flight tests, 
and the first two service flights. Last week we held a formal 
groundbreaking with our partners to begin construction on the 
crew access tower for the Atlas V launch pad at Cape Canaveral. 
Work is underway on the Atlas V emergency detection system, 
part of the abort system that supports human rating of our 
integrated system.
    Boeing and the Kennedy Space Center have completed handover 
of the former Orbital Processing Facility, OPF-3. Boeing has 
transformed it into a modernized state of the art facility that 
will support manufacturing, assembly, and integration and test 
for the CST-100 spacecraft. We have installed tooling, and have 
received and inspected more than 150 pieces of flight hardware 
on the way to assembling the CST-100 structural test article. 
Later this year, hardware for the qualification test vehicle 
will arrive, and after that the orbital and crude flight test 
vehicle hardware.
    Other points of progress include system software and 
avionics development, along with development of our avionics 
and software integration lab. Wind tunnel testing and landing 
system testing in ongoing. Our space suit supplier has provided 
an innovative, safe, and comfortable space suit prototype. And 
we are making significant progress with cabin interior design 
features.
    Throughout 2015 and 2016 we will complete a number of key 
development tests and reviews. We are confident these 
milestones will show progress and completion of our structural 
test article and qualification test vehicle. Demonstration of 
flight hardware, acceptance of the mission control center, 
integrated simulation system, and completion of a service 
module hot fire launch abort test. We are on track for a pad 
abort test in early 2017 to fully check out the abort system, 
an un-crewed orbital flight test in spring of 2017, and our 
crewed flight test in the summer of 2017. After successfully 
achieving human rating certification, we will be prepared to 
fly the first service mission by the end of 2017.
    As in most development programs, the Commercial Crew 
Program presents a number of technical and programmatic 
challenges. We are working proactively to meet these 
challenges. A key strength that Boeing provides to NASA is that 
we have depth in a wide range of engineering and manufacturing 
disciplines. We are able to apply those capabilities readily to 
achieve NASA's objective for safe crew access to ISS.
    Commercial transportation to low-Earth orbit is the right 
solution to enable a robust portfolio of NASA programs in 
science and human space flight. The Commercial Crew Program 
provides safe and affordable transportation of our astronauts, 
helps stabilize our American human space flight work force, and 
frees up funding for NASA to invest in deep space exploration. 
Boeing is making substantial progress in our rigorous crew 
transportation development. Boeing is bringing the same quality 
to commercial space flight that we bring to our servicemen and 
women, NASA astronauts, and to the traveling public every day.
    Thank you again for the opportunity to be here today, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Mulholland follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Palazzo. Thank you, Mr. Mulholland. I now 
recognize Dr. Reisman for five minutes to present his 
testimony.

               TESTIMONY OF DR. GARRETT REISMAN,

                   DIRECTOR, CREW OPERATIONS,

           SPACE EXPLORATION TECHNOLOGIES CORPORATION

    Dr. Reisman. Thank you, Chairman Palazzo, Chairman Smith, 
and Ranking Member Edwards. Thank you very much for inviting me 
here today to talk to you about SpaceX's progress under NASA's 
Commercial Crew Program. SpaceX is proud to be serving our 
nation's space program in a variety of ways. We are flying 
cargo missions today to the International Space Station using 
our Dragon spacecraft and our Falcon 9 launch vehicle. SpaceX 
currently offers the sole capability to return significant 
amounts of cargo to Earth from the ISS. We are also launching 
satellites for NASA and the Department of Defense, as well as 
the world's leading commercial satellite providers. To date, we 
have successfully launched the Falcon 9 15 times, and we have--
and that includes six Dragon flights up to the ISS and back. 
Capitalizing on lessons learned from these missions, and from 
our partnership with NASA, the safest and most advanced human 
space flight systems ever seen are our objective.
    Mr. Chairman, if I may, I would like to share a short video 
with you to provide a brief glimpse of SpaceX's manufacturing 
capabilities, hardware, and activities.
    [Video shown.]
    Mr. Chairman, human space flight is the reason that SpaceX 
was founded. Safe human space flight is of paramount importance 
to SpaceX, and also to me personally. Having been an astronaut 
at the time of the Columbia accident, I could tell you that I 
never want our country to have to experience a loss like that 
again. The safety and reliability that we have designed into 
the Falcon 9 and the Dragon reflect this longstanding intent. 
We are working steadily, thoughtfully, and efficiently with 
NASA to yield the safest and most reliable astronaut 
transportation system that the world has ever seen.
    SpaceX believes that competition is critical to safe, 
timely, and assured access to space. The Aerospace Advisory 
Panel, the GAO, and NASA all agree that competition is an 
essential feature of this program. The value of redundant space 
transportation systems has also been repeatedly and recently 
demonstrated.
    However, since 2011, the United States has depended 
entirely on Russia to transport our astronauts to the 
International Space Station. This is not a situation our great 
nation should accept. Together, we will fix this, and in only a 
few more years we will be launching once again Americans, on 
American rockets, from American soil. Your ongoing support is 
essential to restoring that capability by 2017.
    Thank you for your contributions to the Commercial Crew 
Program, and to the American space exploration efforts. I am 
pleased to take any questions you might have.
    [The prepared statement of Dr. Reisman follows:]
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Chairman Palazzo. Thank you, Dr. Reisman.
    I thank the witnesses for their testimony. Members are 
reminded that Committee rules limit questioning to five 
minutes. The Chair recognizes himself for five minutes.
    Mr. Gerstenmaier, we are currently paying Russia $76 
million for a Soyuz seat to the ISS, which has historically 
increased nine percent per year. Your testimony states that the 
commercial crew prices will be roughly 50 million per seat, but 
that is hard to calculate an apples to apples comparison, 
because the commercial crew price includes some cargo. So my 
question is, does this $58 million price also include the 
investments NASA has made in the CC Dev 1, CC Dev 2, CCiCap, 
and the CPC phases, or is this just CCtCap post-certification 
mission? I can't hear you.
    Mr. Gerstenmaier. The cost for commercial crew are just the 
costs associated with the post-certification mission 
activities. They do not include the developmental costs.
    Chairman Palazzo. What would the price per seat be if you 
included all development funding for the Commercial Crew 
Program.
    Mr. Gerstenmaier. Again, I can go ahead and do that 
calculation for you. I will take the question for the record.
    Chairman Palazzo. Ballpark?
    Mr. Gerstenmaier. We did the calculation the way we did 
because it is a fair comparison with the Soyuz. We didn't 
include the Soyuz development costs associated with the Soyuz 
vehicle in those numbers. So, it is the cost that NASA pays for 
the actual service we need to go to ISS. That is the reason we 
did the calculations the way we did.
    Chairman Palazzo. So you don't want to take a stab at--I 
mean, if you included the total development costs, would it be 
twice that of $58 million? Is it twice that--what we are paying 
the Russians?
    Mr. Gerstenmaier. You could----
    Chairman Palazzo. Less than that?
    Mr. Gerstenmaier. It will be probably slightly more than 
the Russian seat price if you include the development cost in 
there. And we can do the calculation.
    Chairman Palazzo. All right. Thank you. Your testimony also 
states that you anticipate re-baselining the CCtCap schedule 
milestones, and that there will be a relatively large number of 
changes. Your statement also indicates that this will not 
affect contract costs.
    So my questions are, will these milestone changes affect 
schedules? What--and while I am sure that all parties are very 
motivated to develop a capability as soon as possible, does 
NASA have any leverage in these contracts to ensure performance 
based on a schedule? For instance, if schedules are not met, or 
payment simply delayed until milestones are completed, are the 
payments lost, or are the payments scaled back?
    Mr. Gerstenmaier. Again, the payments will not be made 
until the milestones are satisfied, so those payments are 
essentially held back, in a sense, until those are met. I think 
the contractors can talk directly about where the schedules 
have moved and where the milestones are changing.
    This is very typical in a contract startup, where you get 
the contractor on board, you go through, you evaluate the 
details of the schedules. Many of the proposals were written 
about a year ago, so it is very appropriate for them to go 
ahead and see some updates in movement. We will continue to 
monitor the schedule.
    You know, we were careful to make 2017 as a goal. We didn't 
want to make that as an absolute requirement, and the reason 
for that was purely safety. We felt that if we pushed too hard 
on schedule, we could sacrifice technical development. We could 
sacrifice safety to meet the date certain of 2017. So we will 
be cognizant of the date, we will move forward--as fast as we 
can, but we will also make sure that safety is present as we go 
forward.
    Chairman Palazzo. All right. Mr. Mulholland?
    Mr. Mulholland. Chairman, if I might add, our final 
proposal submittal to NASA assumed an August 1 authority to 
proceed, with the award near the end of September, and then 
subsequent protest. We re-baselined our proposal consistent 
with that approximate two month award delay. We did not want to 
compress our schedule, or take any technical risk at this time.
    That said, we are working very diligently on several 
opportunities to try and accelerate that delivery. But at this 
point in the program, it did not make sense to do anything 
other than adjust our schedule consistent with the award date.
    Chairman Palazzo. Okay. Dr. Reisman, if you want to add 
anything?
    Dr. Reisman. Just to say, with regard to schedule, that 
we--after the original proposal was submitted, we continued to 
work diligently on our design, and we found ways, during the 
blackout period of the procurement, and during the protest, to 
make our vehicle better, safer, and more reliable.
    And so that led to summary adjustment of some of the 
milestones, but I could tell you that we have a schedule that 
has been vetted by NASA, has been integrated upon with NASA, 
that has a margin built in to each milestone, and that has a 
significant amount of milestone--of margin to mean the ultimate 
goal of flying Americans in space in 2017. So we are confident 
that we are in a good position.
    Chairman Palazzo. All right. And, lastly, Dr. Gerstenmaier, 
several media outlets have recently reported that the Russian 
space agency is considering exiting the ISS partnership to 
support their own Space Station. According to the reports, this 
could include decoupling the Russian segments from the rest of 
the station, and continuing on their own. Do you have a 
response to these reports, and how would NASA respond in such a 
situation?
    Mr. Gerstenmaier. I think the details of those reports are 
basically that this would occur in 2024 or 2025, which is after 
the extension of the Space Station to the period of 2024, we 
have not heard anything officially from the Russians on their 
plans, but our understanding was, from the media reports, and 
from this internal meeting, that it was after 2024, so it would 
not have any impact to us through this period of ISS 
operations.
    Chairman Palazzo. All right. And after 2024, that is when 
you expect industry, or non-profits, or somebody else to assume 
operations of the International Space Station? But if Russia 
does decouple their segments from the International Space 
Station, is that--I mean, have you given any thought to how 
NASA would handle that? Even though you may not be the operator 
at the time, I mean, how would that affect ISS operations for, 
you know, whatever group that does take it over?
    Mr. Gerstenmaier. We will continue to work those plans, but 
we have an ability to operate station without our Russian 
partners, if absolutely required.
    Chairman Palazzo. Okay. Well, thank you very much. I now 
recognize Ms. Edwards for her questions.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the witnesses today. As usual, we never have quite 
enough time to go into all the details, so please accept my 
apologies. And I just want to note, for the record, that many 
Democratic Members are not here today not because they are not 
concerned, but because a Democratic caucus meeting was called 
at 9 o'clock, at the time of this hearing, so we apologize for 
that.
    I want to focus on Vice Admiral Dyer, in Mr. Gerstenmaier's 
prepared statements, he indicated that the Certification 
Products Contract efforts gave NASA an early insight into 
vehicle designs and approaches, and it would seem that access 
to the contractors' proposals for variances to meet the various 
safety requirements, and how NASA handled them, would be pieces 
of information that would be critical to ASAP's 
responsibilities in advising Congress.
    In fact, in Mr. Gerstenmaier's statement, one point in 
particular stands out. He says, and I quote, ``Overall, this 
phase of the contract was critical to allowing the contractors 
to understand the human rating requirements, and NASA's 
understanding of how the contractors' approaches intend to meet 
those requirements.'' And I want to know from Vice Admiral 
Dyer, were you aware of NASA's plans to assess contractor 
variance proposals, and did you request access to the variance 
proposals, and NASA's subsequent disposition?
    Vice Admiral Dyer. Yes, Madam Ranking Member. We were--we 
are aware. We have asked for that insight. We have not received 
it during the 2014 period. As I indicated in my testimony, 
General Bolden, the administrator at NASA, has indicated he is 
going to correct the situation. We are beginning to see the 
early stages of making that turn. We don't yet understand the 
waivers that have been granted, in terms of--beyond that which 
Mr. Gerstenmaier shared this morning.
    Ms. Edwards. Excuse me----
    Vice Admiral Dyer. We look forward to----
    Ms. Edwards. --would that----
    Vice Admiral Dyer. --that insight, but we don't have it 
yet.
    Ms. Edwards. Would that--that information would, of course, 
help you, in terms of your advice both to the Congress, but 
also the, you know, the kind of partnership that is necessary 
from NASA, so that we can make sure that we really are paying 
attention to the safety concerns that all of us have expressed 
an interest in. And we all want to be on the same page about 
those things, isn't that right?
    Vice Admiral Dyer. You are absolutely right----
    Ms. Edwards. Thank you.
    Vice Admiral Dyer. --and we look forward for that insight.
    Ms. Edwards. Thank you. So I want to turn to Mr. 
Gerstenmaier, because I am--really, as I hear this, I am just 
incredibly dismayed about ASAP's difficulty in obtaining the 
kind of information that they need to advise the Congress. So, 
you know, and although I hear that there are conversations now 
about how that is going to happen, it still hasn't.
    And so I want some assurance today, and I know the--all of 
the Committee, actually, wants the assurance today that ASAP 
will have full and unfettered access to contract information 
that is required to ensure document traceability of safety 
throughout the development and certification of commercial crew 
systems. And so can you give me that assurance today?
    Mr. Gerstenmaier. Yes. ASAP will have access to all the 
contract details associated with the variances and the other 
activities that could help them do their job.
    Ms. Edwards. When?
    Mr. Gerstenmaier. We already did that in January. Vice 
Admiral Dyer can discuss the meeting we had in January with the 
ASAP panel. We are beginning to give all that data to them, and 
we will continue to give it to them.
    Ms. Edwards. Okay. And so, I mean, when could we expect, if 
we were asking as a Committee, that ASAP would have what they 
need to date?
    Mr. Gerstenmaier. Immediately.
    Ms. Edwards. Okay. We will be asking about that again. Mr. 
Mulholland----
    Mr. Gerstenmaier. And they have already received it in 
January, so they got a significant amount of information in 
January from the agency, and we will continue to give more as 
needed.
    Ms. Edwards. Well, I look forward to both NASA and ASAP 
communicating with the Committee about what has been received 
in what timeline, and what remains to be received, so we would 
appreciate that.
    Mr. Mulholland and Dr. Reisman, how will you ensure that 
NASA and ASAP don't encounter the same problems that ASAP has 
experienced in acquiring documents that are needed to evaluate 
safety?
    Mr. Mulholland. I think that is an extremely important 
position. I have the utmost respect for Vice Admiral Dyer, the 
ASAP mission. We have had two very successful meetings with 
ASAP in the last year, where we went through the details of our 
certification plans, validation plans. I was disappointed also 
to see the report, and the lack of information provided. In our 
meeting with ASAP just a couple weeks ago, I personally pledged 
to Vice Admiral Dyer that we would give him any and all 
information of our products, regardless of the ability of NASA 
to provide it to them.
    Ms. Edwards. Dr. Reisman?
    Dr. Reisman. We have also been open to the ASAP. We have 
had them out to our facility in Hawthorne, and have a standing 
invitation to them to invite--to come by anytime. I think we 
are talking about August for another meeting just earlier 
today. But we are committed to full insight. We are drastically 
ramping up our activities in terms of insight for NASA, and 
creating complete transparency. We have established working 
forums, working groups.
    Each SpaceX technical group has a weekly or biweekly 
meeting with their NASA counterparts, and communication is 
happening daily so that NASA knows exactly what we are doing, 
in terms of design and development. We have a buddy system, 
where everybody at SpaceX has a point of contact at NASA. We 
have deep facility and data access. So, really, we are being as 
transparent as we could possibly be.
    Ms. Edwards. So--thank you very much, Mr. Chairman, for 
indulging me, and--so I appreciate that, the--and the 
relationship that our commercial partners have with NASA. I 
want that same relationship with ASAP, so that Congress has the 
ability to make sure that we can make determinations about how 
we are spending taxpayers' money, and about the progress of the 
program, and that we are continuing to stay focused on safety.
    Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And, 
again, I appreciate the leadership you and the Ranking Member 
are demonstrating by this hearing today, and the leadership you 
have taken in this job.
    Let us see. Let me give this--the President has requested a 
54 percent increase in the funding level for the Commercial 
Crew Program, so that is a $1.24 billion request for 2016, 
versus $850 million that was appropriated for 200--for 2015, so 
we have had this increase in the request.
    I guess we should ask Mr. Gerstenmaier--now, if we don't 
get full funding, we have been hearing that the date for 2017 
is at risk. We have heard that testimony several times. But 
yet, every year, we actually are spending less--we are 
appropriating less money than has been requested. Congress is 
appropriating less than what is requested, yet we are saying 
the 2017 date is at risk unless we meet these appropriations, 
but we are not doing it. Is the 2017 date at risk right now 
because of actions or inaction by Congress to fully appropriate 
the request of the Administration for the Commercial Crew 
Program?
    Mr. Gerstenmaier. Again, as I said in my written and oral 
statements, the problem with not getting appropriate funding in 
the past year has caused us to slip from earlier delivery 
dates, where we had planned to be earlier in 2015 and 2016, 
depending on which budget we submitted. Now we are saying 2017, 
the 805 that was provided this year, in 2015, is acceptable to 
continue to hold that date. It is consistent with the 
contracts. The funding that we need in 2016 is absolutely 
required to hold the 2017 date.
    Mr. Rohrabacher. Okay. So if we don't get the full amount 
that you have requested, which is $1.24 billion, we could 
expect the date to slip?
    Mr. Gerstenmaier. Yes, the date will slip, and, more 
importantly, there is very important work that needs to be done 
in this near term timeframe that is important for both safety, 
and also important for the overall design of the vehicles. And 
without that funding, we will impact those other objectives, as 
well as just the date.
    Mr. Rohrabacher. Okay. So for every year that we let this 
slip, we are dependent on the Russians for the transportation 
at $76 million per seat. So how much will it cost us extra if 
we are letting that date slip?
    Mr. Gerstenmaier. We use six seats per year, so you could 
do the math.
    Mr. Rohrabacher. So that is a very considerable price that 
we are paying, maybe more than even what--if we just go ahead 
and fund the program. I hope that that sinks into people's 
minds there. So--and so let us just--and let us also note--let 
us--we are depending on the goodwill of the Russians, and I 
want to note that they are showing goodwill. They could 
actually cut us off altogether, which is one other reason why 
we want to make sure that we--the crew program that we are 
talking about, that we get back in this business. So every year 
that we delay this, underfunding, we actually are paying the 
Russians an enormous amount for transportation. That needs to 
sink in.
    Now, in terms of--how much would it cost, Mr. Gerstenmaier, 
if we were--we have heard the witnesses here from the two 
companies that are leading the way. They are point companies in 
this effort. How much more would it cost us if we were going 
about to achieve the same crew capabilities that we are trying 
to achieve, if we are going through the old process that NASA 
used to have in developing this type of technology? We have two 
private sector companies here. We know the cost of that. How 
much more or less would it cost if NASA would have gone through 
the old system, not the non-commercial system, as the admiral 
detail, the difference between what the commercial approach 
was, and the old NASA approach was?
    Mr. Gerstenmaier. I can't provide you a specific number, 
but is extremely more efficient to do it the way we are doing 
it today. And, again, the structured approach we have used, 
where we used Space Act Agreements first, and then we did the 
CPC portion of the contract. This contract is to save the 
agency a significant amount of funds over a typical procurement 
that we would have done from a basic kind of managed from the 
beginning type of activity with these providers.
    Mr. Rohrabacher. So, just in summary, Mr. Chairman, what we 
have, although we are looking at a major expense here, this is 
a lot less expensive to go with these private sector operations 
than if we went with the traditional way NASA would have gone 
about developing this same capability. Thank you very much.
    Chairman Palazzo. I now recognize Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Three questions for you 
Mr. Gerstenmaier. First, after the Columbia Accident 
Investigation Board said that safety should be the highest 
priority, NASA's Astronaut office was more specific, urging 
that the next crewed spacecraft in a low-Earth orbit should 
have a Loss of Crew ratio of no more than 1 in 1,000. The Loss 
of Crew, loss of mission requirements for the commercial crew 
vehicles, are they still the 1 in 1,000? How do they compare 
with those for the Space Shuttle? And do you have the insight 
into the commercial crew contracts necessary to be assured that 
these vehicles meet the Loss of Crew, loss of mission 
requirements?
    Mr. Gerstenmaier. We have the appropriate insight to 
evaluate meeting our Loss of Crew and loss of mission 
requirements. I think we also have the requirements in our 
contracts, in the 1130 set of documents that describe exactly 
the Loss of Crew numbers. They are not the 1 in 1,000 numbers 
that the crew requested. And we believe that that is not 
technically achievable. We think it is also very difficult to 
determine Loss of Crew precisely. There is a tremendous 
variance about that number. It is a very difficult number to 
calculate with any assurance of exactly what that number is. 
But we are very interested in keeping that number understood. 
We will review that again with the ASAP. We had discussions 
with them again in January about how we will meet those numbers 
and ensure we have crew safety.
    The other big advantage of these systems is they have an 
abort system, which was not present on the Shuttle system. That 
allows for, essentially, the vehicles to abort if something 
occurs with the rocket underneath, which we did not have in the 
Shuttle program. And that gets factored in tangentially to the 
equation, but it is not directly in the calculation. Also, the 
capsules are safer to return, and require less stability during 
the return phase, which also makes them safer.
    So there is inherent safety in both of these designs. Both 
companies are very focused on safety. We will meet the 
requirements that are specified across the agency.
    Mr. Beyer. If 1 in 1,000, what the astronauts had 
requested, is not achievable, what is a number that you do use, 
and do think is achievable?
    Mr. Gerstenmaier. We have been using 1 in 500 for both 
ascent and entry, and it is the same for our exploration 
program, so the requirements for Loss of Crew is consistent 
across all agency programs on human space flight.
    Mr. Beyer. Mr. Gerstenmaier, on the slippage issue, if, for 
some reason, SpaceX, Boeing is not able to perform by 2017, 
will you be able to extend the contract with Roscosmos? And I 
know there is three year lag times on some of that. Or are 
there any other reasons for continuing the contract with the 
Russians as backup?
    Mr. Gerstenmaier. We have recently done a synopsis to begin 
the investigation to see what our options for extending the 
Soyuz into 2017. We currently have Soyuz capability through 
calendar year 2017, with a return flight of our crews in the 
spring of 2018. We did that synopsis to begin the discussion 
with the Russians about acquiring additional Soyuz capability. 
We will continue that discussion over the next several months. 
But again, if you look at the timing, we need to make a 
decision with the Russians sometime this spring to have that 
assurance.
    We think it is probably in our best interest, even if the 
calendar shows that we will be well completed in 2017, there is 
some advantage of having an overlap of both Soyuz capability 
and U.S. capability at the same time. Because we could get very 
late into flow on the launch pad, have a problem with the 
launch pad, or have a vehicle very late in the flow having a 
problem, and if we don't have a backup capability, we would be 
in the posture of having to de-crew the station. So we think it 
is in our interest to go pursue additional seats with the 
Russians. We will do that over the next several months.
    Mr. Beyer. And is there any real wastage to have that 
overlap of taxpayer money, or NASA resources?
    Mr. Gerstenmaier. I believe we will use those Soyuz seats 
to our advantage. If the preference will be to fly the 
commercial providers as soon as they are ready, then we will 
use those Soyuz seat capabilities to the advantage--to give us 
additional research time on board station.
    Mr. Beyer. All right. Thank you. And one last question. 
Every day I pick up the Post and read about Russia violating 
the terms of the cease fire in the Eastern Ukraine, the seizing 
of Crimea, the continued conflict there. The U.S. sanctions, 
and the sanctions from any European countries, are they 
affecting your relationship with the Soyuz at all?
    Mr. Gerstenmaier. No. To this point, we have a very strong 
relationship with the Russians. We work with them every day on 
board Space Station. Our teams are in constant communications 
back and forth. We have a team of roughly 20 to 30 U.S. 
citizens in Russia, constantly monitoring the Space Station 
activities, and the partnership at an engineering level, a 
technical level, and the program level has been very strong 
between the Russians and the----
    Mr. Beyer. Okay.
    Mr. Gerstenmaier. --U.S. and NASA personnel.
    Mr. Beyer. Thank you, Mr. Gerstenmaier. I yield back, Mr. 
Chair.
    Chairman Palazzo. I now recognize Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. Vice Admiral Dyer, I 
could not help but listen with great intensity to your opening 
comments, and, of course, the questions so accurately raised by 
Ranking Member Edwards. Most of us on this panel--all of us on 
this mantle--panel remember the loss of the two shuttle crews. 
I suspect most of us remember the loss of the first Apollo crew 
many years ago, so sensitivity to safety and understanding that 
our astronauts are the most valuable piece of asset in the 
programs is of great importance to us.
    Could you expand again for a moment about the challenges 
that the Aerospace Safety Advisory Panel faced in 2014 trying 
to access the information? Now, I know we have been given 
assurances here today that everything is available, but could 
you expand on for--that for just a moment?
    Vice Admiral Dyer. Yes, sir, I am happy to do so. It is, in 
my opinion, first and foremost a leadership level issue, below 
Mr. Gerstenmaier. It has been one that I have seen many times 
in my DOD experience, where an inexperienced program director, 
being perhaps right-hearted, but wrong-headed, believes that 
protecting the program from any criticism, or from any of those 
that might speak questioningly of it, is a first 
responsibility. It builds suspicion and distrust. It is not in 
the best interest of the program.
    That is beginning to turn around, as Mr. Gerstenmaier said, 
but only after the issuance of our annual report. The first 
thing we received were gigabytes of data that I would describe 
as there is something important in there somewhere, why don't 
you see if you could find it? And we are following that up now 
with more detailed briefings, and the future is beginning to 
look better, but we can't yet answer the question as to whether 
or not the certification process looks good and safe to us, and 
whether or not the path forward looks to be of good technical 
conscience. We will, but we are not there yet.
    Mr. Lucas. And the players that made it so challenging, 14 
are still in place?
    Vice Admiral Dyer. They are.
    Mr. Lucas. I can assure you, Admiral, that the Committee 
will work with you to make sure that the panel's mission is 
completed, for the sake of all of our investments. With that 
thought, Mr. Chairman, I actually yield back.
    Chairman Palazzo. Thank you, Mr. Lucas. I now recognize Mr. 
Posey.
    Mr. Posey. Thank you, Mr. Chairman. Dr. Reisman, just 
curious about the extent to which NASA might impose safety 
requirements above the level of safety you would have if you 
did not have NASA oversight?
    Dr. Reisman. That is an interesting question. We--we have 
designed a vehicle, first and foremost, for what we think is 
safe, and what we think is the best possible design. We then 
make sure that we comply with NASA requirements, but often we 
exceed them, and one example is our launch abort system, which 
is--as Mr. Gerstenmaier pointed out, is an essential advantage 
over both of our vehicles, compared to the one I rode, the 
space shuttle.
    Our launch abort system really has--the NASA requirement is 
not for fault tolerance, but we have made that launch abort 
system to be single fault tolerant, to make it even safer than 
it has to be per the requirements. So we look at--we make sure 
we meet the requirements, and we are committed to meeting 
NASA's safety requirements, but we are--we think it is prudent 
we go beyond them.
    Mr. Posey. Okay. Thank you. Mr. Gerstenmaier, what was the 
original cost of a seat on a Soyuz?
    Mr. Gerstenmaier. Soyuz seat price was--I don't remember 
what the original was. On the order of $50 million or so.
    Mr. Posey. Okay. And how much is it exactly today?
    Mr. Gerstenmaier. Today it is $76 million per seat.
    Mr. Posey. Okay. That is a pretty significant increase. 
Were those increases in cost, and I know they have gone up 
gradually, as I have seen--were they anticipated, were they 
agreed to in advance, or were they unilaterally set by the 
other side?
    Mr. Gerstenmaier. They were anticipated and negotiated with 
the Russians.
    Mr. Posey. Okay. And how much higher does this cost go?
    Mr. Gerstenmaier. Our historical increase has roughly been 
about nine percent per contract, and that was, again, fact-
found on our side, where we looked at that compared to actual 
manufacturing costs, inflation, Dollar to Ruble conversions. 
All those went into those calculations, and the nine percent 
was seen as a reasonable kind of increase. And how can they go, 
I can't anticipate.
    Mr. Posey. Yeah, when will we expect the negotiations, or 
recalculation about the next increase?
    Mr. Gerstenmaier. We are in the process of doing that now. 
We started with a synopsis, of which we received comments back. 
We are beginning discussions with the Russians on the contract, 
as I have just described to you.
    Mr. Posey. Okay. And when do we anticipate that will be 
complete?
    Mr. Gerstenmaier. It will probably be complete in the next 
several months.
    Mr. Posey. And we should look at probably a minimum of nine 
percent, so another $7 million increase, minimum?
    Mr. Gerstenmaier. I think that is very reasonable.
    Mr. Posey. Okay. And then when is the next re-analysis 
scheduled after that?
    Mr. Gerstenmaier. We don't anticipate requiring any more 
additional seats after the seats we will acquire this time. We 
would anticipate acquiring six seats for 2018. We believe that 
provides sufficient overlap, as I described earlier.
    Mr. Posey. Thank you, Mr. Gerstenmaier. Mr. Mulholland, I 
understand that the CST-100 is designed to fly on multiple 
rockets. Can you discuss what makes the versatility possible, 
as well as what rockets it is capable of using, and why you 
chose the Atlas V as the launch vehicle?
    Mr. Mulholland. Absolutely. One of our original design 
parameters on the CST-100 was to design the spacecraft for all 
launch vehicles in this class to make it easier, if--in the 
event we needed to switch to another launch vehicle. We chose 
the Atlas V, obviously, because of its reliability. It has 
flown 52 times, with 100 percent mission success, unparalleled 
technical and schedule reliability.
    But from day one we designed the CST-100 for launching on 
Delta. We have worked with SpaceX in the past to understand the 
loads of the Falcon 9, and we have also worked with emerging 
launch vehicle providers to ensure that we drive in long-term 
affordability through the entire life cycle of the program.
    Mr. Posey. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Palazzo. I now recognize Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair, and thanks for having 
this today. I have just a couple quick questions. Mr. 
Gerstenmaier, on--as far as competition, we are having two 
companies involved. Can you give me kind of an idea how 
beneficial that is, having--competing for not just dollars, but 
competing for safety, competing for innovation? Can you give me 
an idea of where we are on that?
    Mr. Gerstenmaier. I think there is a tremendous benefit to 
the U.S. government, and to NASA, to have competition during 
this development phase, and it is much more than cost, as you 
described. You know, if we run into a problem or concern with 
the safety aspect, to not be totally reliant upon one 
contractor, and have the other one available to go ahead and 
continue is very important to us. If they run into a technical 
problem, maybe a manufacturing problem, parts delivery problem, 
or they have a test failure somewhere along the way, having 
another provider available to us to move forward and continue 
to keep progress heading towards commercial services is 
extremely important.
    So there are numerous benefits along those lines during 
this development phase that keeps both companies at the top of 
their game, keeps innovation in the system, keeps making them 
want to go ahead and make these milestones to keep moving 
forward. So it is extremely important to have competition 
during this development phase.
    Mr. Knight. And I think--let us see. I think, Vice Admiral 
Dyer, we were talking about the 1,000 to 1, or the 500 to 1, or 
maybe Mr. Gerstenmaier wants to weigh in on this. What are the 
Russians--when we are sending them up, what do we expect of 
them, or what kind of track record do they have? Are they on a 
1,000 to 1, are they on a 500 to 1, or are they on less than 
that?
    Vice Admiral Dyer. Mr. Gerstenmaier will be better prepared 
to speak to the quantitative numbers. I will tell you that the 
Soyuz services do represent, given their years of support, and 
the numbers of missions that they have launched, it does 
represent a buy opportunity. It is market proven, and the bona 
fides of reliability, safety, have been demonstrated over time.
    Mr. Gerstenmaier. I would say that if you look at--their 
actual demonstrated reliability it is probably a little bit 
less than 1 in 500, from kind of a calculation standpoint. But 
then if you look at their actual demonstrated performance, it 
is fairly high. And the fact that, again, they have a pretty 
robust system overall, with a good design margin in it, and it 
has been demonstrated over the years. So, the--Soyuz again has 
the abort system on the spacecraft, much like the other 
providers. It is also a capsule design, with a proven, fairly 
simple re-entry capability.
    So, it probably has a calculated number slightly less than 
what we will get with the commercial providers. But, from a 
demonstrated, and actually proven over the multiple years, it 
is probably slightly better.
    Mr. Knight. And I think you can hear from this panel, and 
from any American, that safety is the most paramount issue when 
we are talking about sending our young men and women into 
space. When we were talking about cost, it is about 77 now, and 
I guess the new contract will bump it up to about 84, and that 
would be comparing to 58 when the American companies are doing 
this.
    We are not calculating in the development of the American 
companies, we are not calculating in all of the things that get 
us to that point where we are sending Americans into space, so 
it is a little apples to oranges when we are talking about tax 
dollars, but somewhere down the road those lines are going to 
meet, and the--or the American taxpayer is going to get a 
benefit. And so I would expect that that would be somewhere in 
the near future, five years into the program, or maybe even ten 
years into the program, so it will be beneficial to the 
taxpayer to do this. Also from a confidence standpoint, that we 
have American companies sending Americans into space, and we 
are backing the American dream of having space exploration.
    So I yield back, Mr. Chair, and thank you very much.
    Chairman Palazzo. I now recognize Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Mr. Chairman, and thank you for 
indulging me, and letting me pass a couple times to listen to 
some of the questions and answers. I am new to this Committee. 
The acronyms are plentiful in your business, and I just wanted 
to have a chance to talk about, you know, from point of view--
as a Member of Congress, safety issues, cost issues are going 
to be more up my alley than the technical issues that you all 
are discussing. So let me get down to a couple questions that I 
have.
    And the first is the safety issue. The Atlas V, I think, 
Mr. Mulholland, you said 52 missions, no failures. If, for some 
reason or other, Congress were to say, we are not dealing with 
any Russian engines from this point forward today, how long 
would it take us to come up with a new engine to power, say, 
the Atlas V, or some other rocket like that, to take on these 
missions?
    Mr. Mulholland. I would say ULA and the member companies of 
ULA are working diligently with Blue Origin, and also with 
AeroJet, to develop a replacement engine for the Atlas V.
    Mr. Perlmutter. I hear you, but--and I am not trying to 
lead you down a path. It isn't like we could have an engine 
tomorrow.
    Mr. Mulholland. No.
    Mr. Perlmutter. I mean, not even next year probably. Three 
or four years, right? Now I am trying to lead you down a path.
    Mr. Mulholland. No, it is, you know, ULA is on a plan for a 
2019 re-engine of the Atlas V launch vehicle. The Air Force 
recently thought that that program would take seven to nine 
years. And so it is very important for us to make sure that we 
have a launch vehicle that is as robust and reliable as the 
Atlas V. There are other launch vehicles we could move to, such 
as the Delta, if we needed to. We were not given a bid for the 
Falcon 9 during this previous phase of the proposal, but we 
have had discussions with SpaceX, if they would be willing to 
provide a proposal. But incredibly important that we 
thoughtfully move through the ULA re-engine.
    Mr. Perlmutter. So, I mean, basically you have got one path 
where you are developing other engines that would be American-
made?
    Mr. Mulholland. Um-hum.
    Mr. Perlmutter. At the same time, we have a reliable engine 
that has worked for us 52 times. And you can't just go cold 
turkey on that immediately and hope to move forward with these 
different programs we have in place, is that right?
    Mr. Mulholland. Correct.
    Mr. Perlmutter. Okay. So, second question I have, and you 
all should know I am from Colorado, and I have certain 
companies in my state that are clearly interested in space 
exploration, and launches, and delivery, and all of that stuff. 
So, as I understand it, the Space Station has what I think Mr. 
Gerstenmaier, or somebody may have said, a--we expect a seven--
well, a life through 2024. Yet the missions that you two, 
Boeing and SpaceX, have been given as part of your competition 
really go until 2023.
    And I am just curious, and either--Mr. Gerstenmaier, you 
can answer, or, gentlemen, you can answer on behalf of your 
companies, am I now to take it that more or less competitive 
bids are over for any new kinds of commercial crew 
opportunities? And I am talking about the Dreamchaser, or 
whatever else might exist.
    So, Mr. Gerstenmaier, you are looking pretty forlorn that 
nobody has asked you any questions for a while, so I will ask 
you.
    Mr. Gerstenmaier. We anticipate a competitive selection for 
services beyond the existing contracts. We have required a 
minimum purchase of two flights per contractor in this first 
contract, and anything beyond that, we have the option of going 
and competitively selecting for future services to the Space 
Station.
    Mr. Perlmutter. And gentlemen--Dr. Reisman, would you agree 
that you are in this to compete and to win, and you think that 
SpaceX can do that?
    Dr. Reisman. Absolutely. And I just wanted to add that, you 
know, John is talking about the possibility of making CST-100 
compatible with the Falcon 9. We have had some discussion. I 
would put out there that the Falcon 9 is, in our opinion, the 
best way for the U.S. to wean itself off its Russian 
dependency. It is 100 percent American made. It has 15 
consecutive flights, with 100 percent primary mission success. 
But by the time, in 2017, when we strap somebody in, we will be 
well over 50 missions, and so we will have the same type of 
flight heritage that the Atlas V has today.
    It was designed from the beginning with human rating in 
mind. It has triple avionics streams, factors of safety of 1.4, 
so it meets all the human rating requirements. Now, I don't get 
a commission, so I can't sell you one of those today, and it is 
above my pay grade to talk about these types of strategic 
alliances, but I just wanted to say the Falcon 9, in my 
opinion, with all the issues we have out there, is certainly 
the best path forward for America, not only for NASA, but for 
Department of Defense, to break our dependency on the Russians.
    Mr. Perlmutter. My time is expired, but if Mr. Mulholland 
wanted to respond, it is--I don't know. You--were you getting 
ready to say something?
    Mr. Mulholland. I think it is important, and obviously we 
work with and monitor the Falcon 9 performance as a launch 
vehicle buyer. It will be interesting to see, as--the Falcon 9 
has gone through a couple of different design changes, and they 
are getting ready to go to larger engines, and so it will be 
interesting to see the stability and the scale as they perform. 
As Dr. Reisman mentioned, they expect to be over 50 missions by 
the time the launch services are provided, which would be a 
significant increase in their schedule reliability, to be able 
to achieve that number of missions per year.
    And as they achieve that, and have that demonstrated 
reliability that you would need to put crew on it, obviously it 
could be considered as a launch vehicle----
    Mr. Perlmutter. Okay. Thank you, and thank you, Mr. 
Chairman. I yield back.
    Chairman Palazzo. I now recognize Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Gerstenmaier, 
real quick question starting off. You know, maintaining two 
partners in the program provides competition to price, and a 
redundant capability, but if Russia stopped providing Soyuz 
seats to NASA, could NASA accelerate the development of a 
domestic capability by focusing resources on one partner?
    Mr. Gerstenmaier. No, and the way the contract was awarded, 
or we put the proposal out, the stated requirement was we would 
select one or more providers, so that required both offerers to 
give us essentially their best schedule, and give us the best 
price, as an individual. There was no idea that we would pick 
two out of the selection. So they gave us the best schedules 
that they could give us, and the best price at this award, 
assuming there might only be one winner out of this selection. 
So the current schedule we have is, I believe, the most 
aggressive schedule that we could get, and applying additional 
funds would not allow us to advance that date any earlier.
    Mr. Johnson. Okay. Also, Mr. Gerstenmaier, the Commercial 
Crew Program is a new way of doing business that requires new 
processes for investigating mishaps or accidents. What has NASA 
done to prepare for any mishaps or accidents that may occur in 
the Commercial Crew Program?
    Mr. Gerstenmaier. Again, we would treat these as a major 
mishap. There is also a Congressional investigation that would 
probably be required and incurred for a loss of life associated 
with these programs. It would be similar to the kind of 
requirements we have had before for our human space flight 
programs, in terms of investigation and requirements following 
a mishap.
    Mr. Johnson. So is it accurate to say, then, that 
procedures are in place to address investigations and oversight 
of investigations?
    Mr. Gerstenmaier. Those procedures are in place. We will 
review them again, probably along with the ASAP, and also with 
Congress, to make sure they are current and make sure they are 
up to date with where we stand today. But the processes and 
procedures we have in place today are the basis to start from. 
But like with any program, we can go back, reflect on them, 
look at them, and potentially improve and enhance them.
    Mr. Johnson. Are they spelled out in the contracts? Are 
these procedures spelled out in the contracts with the 
partners?
    Mr. Gerstenmaier. I don't know if the accident procedures 
are called out specifically.
    Mr. Johnson. Can you share those procedures with the 
Committee?
    Mr. Gerstenmaier. Sure.
    Mr. Johnson. Can you point us to those?
    Mr. Gerstenmaier. Sure. They are available.
    Mr. Johnson. Okay. Great. Mr. Gerstenmaier, the two 
contractors have proposed very different prices for 
accomplishing the goals and mission requirements set forth in 
their respective contracts. How do you account for this large 
discrepancy in development costs between the two competitors?
    Mr. Gerstenmaier. That question is better posed to them.
    Mr. Johnson. Well, you are--but don't you work for NASA? 
Aren't you overseeing the contracts? Do you----
    Mr. Gerstenmaier. Yes, I am.
    Mr. Johnson. Do you have a concern about the----
    Mr. Gerstenmaier. I have no concern----
    Mr. Johnson. --costs?
    Mr. Gerstenmaier. --about the costs. We evaluated both 
costs to see if they were reasonable. We looked at the chance 
of default. We looked at them. They were reasonable, they were 
fully understandable to us, but the specifics of the 
differences we can understand. I can describe to you from a 
NASA perspective why they were there, but you have the luxury 
today of having both contractors here, and they can explain 
that to you in much more detail from their perspective than I 
can from a NASA perspective. But----
    Mr. Johnson. Well, let me ask a follow-on, then. If you 
were to use the same joint confidence level methodology for the 
Commercial Crew Program that you used for the cost-plus 
contracts for SLS and Orion, would you expect the outcome to 
resemble the contractor prices and schedules? Would you see any 
similarities?
    Mr. Gerstenmaier. We did an independent cost analysis, 
where we looked at the cost of what these contracts should 
cost, and we evaluated those against what the actual proposals 
were, and they were reasonable and consistent with what we 
could see.
    Mr. Johnson. Have you done any--has NASA done--considered 
doing any JCLs on these contracts?
    Mr. Gerstenmaier. Right now we have firm fixed price 
contracts in place. We don't believe there is a need to do a 
JCL on a firm fixed price contract because that value has been 
given to us for the service we require, and it is a commitment 
by the contractors to deliver for that price.
    Mr. Johnson. Okay. Mr. Mulholland and Dr. Reisman, what 
plan does each of your companies have to track and mitigate 
schedule and funding risks?
    Mr. Mulholland. Absolutely, and first, if I might go back 
to the cost question, and you talked about the different 
approaches of the two companies----
    Mr. Johnson. I am out of time, so we will have to see if 
the Chairman will indulge, but we will see.
    Mr. Mulholland. Well----
    Chairman Palazzo. Go ahead, Bill.
    Mr. Johnson. He wants--okay. Go ahead.
    Chairman Palazzo. Yes, please.
    Mr. Johnson. Go ahead.
    Mr. Mulholland. I would say that, you know, there is a 
difference in approach. I think the only objective evidence is 
the NASA evaluation from the source board. Mr. Gerstenmaier put 
it in the record, and so the whole source selection statement 
is laid out, but there were many instances of statements about 
the increase in confidence that NASA has in the Boeing plan 
because of the detailed understanding of the certification 
requirements, in comparison to SpaceX, who did not demonstrate 
as good an understanding of the certification products, or have 
as effective systems for development of these key products.
    And so it is, I think, that difference in approach. I mean, 
you have to remember that Boeing has been a partner with NASA 
in the development of every capsule that has taken domestic 
astronauts to space that this country has embarked on. And so 
it is that deep legacy, and knowledge of--and understanding of 
what it takes to design certified, and then field a human rated 
spacecraft.
    Mr. Johnson. Right.
    Mr. Mulholland. And so a lot of focus, from our standpoint, 
on the robustness of the design, and the robustness of the 
processes needed to not only ensure safety in the design, but 
safety in operation through the life cycle.
    Mr. Johnson. Okay. Thank you. Mr. Reisman, if you want to--
--
    Dr. Reisman. Well, John, I mean, it was a good qualitative 
answer, but I could tell you that if you looked in detail at 
the source selection official statement, that--you will see 
that we are--it was neck and neck when it came to technical 
mission suitability. There is a seven percent difference in the 
scores that were awarded, but there was a 70 percent difference 
in price.
    And I could tell you that the reason for that--first of 
all, we are very happy with the $2.6 billion that we did 
receive. That is every penny that we asked for. We have to--I 
should also point out that we have to meet the same contract 
requirements, the same objectives, and, most importantly, the 
same safety requirements that Boeing has to meet. So we have to 
do the same thing.
    As far as why we are so much ahead, in terms of cost, is 
because we are so much ahead in terms of the development of the 
vehicle. We have a cargo vehicle today that is flying to the 
Space Station. We have a Falcon 9 that is already integrated 
with that vehicle. We have a mission control today that is 
controlling that integrated rocket and vehicle. We have the 
luxury of performing two major abort tests, two of the most 
difficult validation tests--hardware tests integrated under the 
CCiCap contract, and those abort tests are about to happen. In 
fact, the test article is at the Cape right now.
    So we had a lot of runway behind us, and, at the same time, 
we are also very efficient. We are a vertically integrated 
company that does not have to pay subcontractors, upon 
subcontractors, upon subcontractors. So we have a lot of 
inherent efficiencies, and I think that explains the 
difference.
    Mr. Johnson. Okay. All right. Well, thank you very much. 
Mr. Chairman, I yield back. Thanks.
    Chairman Palazzo. I now recognize Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. Vice Admiral Dyer, the 
United States Government is working to replace the Russian RD-
180 engine with a domestic alternative. Aside from the 
domestically sourced RS-68 used on the Delta IV launch vehicle, 
is there an alternative engine available today that could 
provide the same level of performance and reliability as the 
RD-180 engine?
    Vice Admiral Dyer. Mr. Brooks, as you heard from both the 
SpaceX representative and Boeing representatives, there are 
hard discussionsto be made about domestic engines, both new 
ones, as well as extended use of the SpaceX engines, there is 
not currently a realistic path forward within the constraints 
of the schedules that we are talking about for commercial 
space, in my opinion.
    Now, I will follow it up by saying we believe that the two 
contractors represent a great competitive portfolio. On the 
Boeing side, they have challenges of process innovation, cost, 
and finding a way to a new engine in time. On the SpaceX side, 
we would submit that the challenges are configuration, control, 
and design stability, as they find innovative and new ways of 
doing business with new equipment, but it is a great portfolio. 
An engine is critically important, but it is not, in my 
opinion, on the path between now and the end of ISS.
    Mr. Brooks. You have answered my second question to some 
degree, Vice Admiral Dyer, but if you would like to add 
anything additional to the second question, feel free. And 
after you have responded, Mr. Gerstenmaier, Mr. Mulholland, and 
Dr. Reisman, if you would like to share your insight, I would 
appreciate it. How important, then, is it for the United States 
Government to develop a domestic replacement for the RD-180?
    Vice Admiral Dyer. I think it is critically important for 
two reasons. For geopolitical reasons, to have an engine that 
is American made and unencumbered is important. And, perhaps it 
is a sin, but there is a prideful issue of American made that I 
think needs to be considered and addressed as well.
    Mr. Brooks. Would any of the other three like to add their 
insight? Mr. Gerstenmaier? No? Mr. Mulholland?
    Mr. Mulholland. You know, I would say it is important to 
have domestic capability over the long term ULA, and the member 
companies are actively pursuing it. But I would also like to 
add that the relationship that we have had with Russia in human 
space flight has been long lasting, and beneficial to both 
companies, and has allowed us, I think, a bridge to weather 
some difficult political situations that we have had globally. 
And so that relationship with Russia has been beneficial to us, 
and I believe will continue to do so.
    Mr. Brooks. Dr. Reisman?
    Dr. Reisman. I think a number of us have mentioned that, 
you know, we all think it is very important for this country to 
have assured access to space without being dependent on any 
other country, especially a country that is--we are having a 
difficult geopolitical situation with. And there are multiple 
ways you can go about doing that. You can start a development 
program for a brand new engine for--to replace rockets that are 
using Russian engines today in America.
    But just--again, I want to emphasize we have a rocket that 
is 100 percent American, and it is standing by, ready to do 
these missions. We are going through the certification process 
with the Commercial Crew Program for human certification. We 
are also getting very, very close to completing certification 
with the Department of Defense for EELV. So we think we are 
standing by and ready to provide that capability for the 
country.
    Mr. Brooks. Thank you, Dr. Reisman. Vice Admiral Dyer, I 
have about a minute left. This question will be for you. Your 
recent report appears somewhat critical of NASA's transparency 
regarding the Commercial Crew Program. Did the issues for which 
the criticism was based extend to the contractors?
    Vice Admiral Dyer. NASA is the controller of information, 
and the nexus of many of our questions. The contractors have 
been open and sharing in showing us their facilities, sharing 
their designs with us, and sharing the questions that they have 
posed to NASA. Our questions, in terms of which waivers and 
deviations have been requested, how are they being filtered and 
sorted, which ones have been approved, and what is the thought 
process behind the approvals of those specific waivers?
    Mr. Brooks. Thank you, Vice Admiral Dyer, and thank you, 
Mr. Chairman. I yield back.
    Chairman Palazzo. Thank you. I--yeah, votes have been 
called. We never have enough time to ask all the questions that 
we want. This is a very important topic, not just to Congress, 
but definitely to the American people, so I am going to open it 
up to one question per side, and I will start with Ms. Edwards.
    Ms. Edwards. Thank you, and I will just be very brief. Mr. 
Gerstenmaier, I am just curious, because in--a couple of times 
in your testimony and your responses, you indicated a concern 
with slippage and budget, based on the fact that Congress 
hadn't provided the appropriations that were necessary. And I 
wonder if you share the concern that I have, that, if NASA were 
to come up--were to be able to do an effective independent cost 
analysis, that actually that could provide a better basis for 
making appropriations, but, in fact, that some of the concern 
with the appropriation has been that NASA hasn't been 
forthcoming in providing that kind of analysis.
    And, indeed, in the 2015 Authorization Act that Mr. Palazzo 
and I moved forward, we require that kind of analysis. And so, 
I don't want to keep pointing fingers, but it would help to 
have that information in order for us to be the best advocates 
we can be for the kind of resources that you need. Would you be 
willing to do that?
    Mr. Gerstenmaier. Again, at this stage, we have definitized 
fixed-price contracts, and we would like to discuss those with 
you, show you the basis for those contracts, and show you the 
variance on those contracts. And that would essentially anchor 
any of our discussions for the budgets, and we could show you 
the other pieces around that.
    So I don't--I am not sure that an independent cost model 
for a different acquisition approach, as we are doing with 
these commercial providers, provides any other insight, other 
than the specifics of the actual negotiated contract that we 
have. And we can show you the milestones and the details. We 
have already shared it with staff. We will continue to share 
that with staff as the basis for our budget.
    So we will provide you with the information you need to 
understand the budget, and all its detail, and what it is based 
on, but it is actually anchored extremely heavily upon these 
actual negotiated contracts, and the milestones that were 
provided by both SpaceX and Boeing.
    Ms. Edwards. And then, just in the time remaining--thank 
you, Mr. Gerstenmaier. In the time remaining, I just want to 
clarify that--both from Boeing and from SpaceX that, in terms 
of all of the development costs that have gone into the--your--
both of your efforts, what percentage of that has been provided 
by taxpayers, and what percentage of that has been provided by 
you independently, as commercial companies?
    Mr. Mulholland. Ranking Member, I don't have that data 
readily available. I certainly will get that to you. I would 
say that NASA has paid the preponderance of the development 
cost, but Boeing has contributed significantly.
    Dr. Reisman. So I am going to, unfortunately, have to say 
the same thing. And I just asked the guys behind me, they don't 
know either, but--so we will get back to you on a precise 
number. But I can tell you that, similar to what John said, we 
have put--especially in the beginning, we put a lot of our own 
money in. We have our own skin in the game, but we have also 
enjoyed a lot of help from NASA, so--the exact numbers we will 
have to get back to you.
    Ms. Edwards. It is important because, you know, the public 
believes that the work that you are undertaking now is entirely 
your own, and you are entirely footing the bill. We just saw a 
recent poll about that, which is actually undercutting our 
ability to make a sale that taxpayers need to continue to 
support NASA as an agency. And so it is a deep concern of mine 
that we have a public that believes, because you guys are very 
good at, you know, the promotion of your work, and it is 
exciting that it is all your skin in the game. And so why not 
just turn it all over to the private sector as though the 
taxpayer shouldn't meet any of that burden at all?
    And my estimates, the estimates that I have, show that 
taxpayers have skin in the game to the tune of about 90 
percent, and you all ten percent. And I don't have a problem 
with that, but I don't want anybody in the public going away 
believing that this is all commercial, and that taxpayers and 
NASA, therefore, don't need to be doing this work. And I thank 
you for your testimony.
    Chairman Palazzo. All right. Thank you, Ms. Edwards. 
Because of the lack of time, I am going to forego my question. 
I am going to submit questions for the record.
    You know, there has been a lot of talk about what is 
actually the true cost per seat for sending American astronauts 
on American rockets back into space. Only time will tell, but 
the American people are really going to be the ones to decide 
how much are they willing to spend on maintaining--or not 
maintaining--but achieving American access to space, and also 
maintaining America's leadership in space. So, I want to thank 
the witnesses for their valuable testimony, and the Members for 
their questions. The record will remain open for two weeks for 
additional questions and written questions from Members. The 
witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 10:40 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


   
                   Answers to Post-Hearing Questions
Responses by Mr. Bill Gerstenmaier


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Vice Admiral Joseph Dyer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. John Mulholland


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Responses by Dr. Garrett Reisman


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record




          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning. I would like to welcome each of our witnesses 
to today's hearing. The topic of today's hearing is an 
important one as it presages a new chapter in NASA's human 
spaceflight activities.
    Now almost halfway through this decade, substantial 
progress can be seen. The International Space Station was 
completed in 2010 and continues to show great promise as an 
orbital laboratory. NASA has started to build the next deep 
space exploration system of the future with the building blocks 
of the Space Launch System (SLS) and Orion crewed vehicle.
    With the Space Shuttle retired, cargo resupply of the ISS 
is being turned over to two commercial providers, albeit a 
success made possible through substantial NASA financial 
investment and technical transfer. And, as we will hear today, 
NASA is working with Boeing and SpaceX to develop of future 
crewed commercial orbital transportation services to the Space 
Station.
    This laudable progress is a testament to the hard work and 
perseverance by the NASA federal workforce and its industry 
partners. In the process, NASA has learned new ways of doing 
things and is adopting some of industry's best practices.
    Yet, we should not lose sight of the fact that routine 
access to space is hard. Nor should we forget the painful 
lessons NASA has learned along the way to mitigate the risks of 
sending humans beyond the confines of Earth's surface.
    This Committee has followed the many twists and turns NASA 
took in getting to this point with its Commercial Crew Program. 
Various contractual vehicles were used, and I will not take the 
time here to recount the Committee's concerns about inadequate 
insight into contractor designs and conformance with NASA 
safety requirements.
    On one hand, I am somewhat comforted that Mr. Gerstenmaier 
is at the helm and feel confident in his commitment to fly NASA 
astronauts on commercial transportation systems only when 
safety has been demonstrated.
    On the other hand, I am not comfortable, nor am I pleased, 
that the Aerospace Safety Advisory Board known as ASAP, 
Congress's safety adviser, was denied access to key information 
before contracts were awarded. Indeed, the Commercial Crew 
Program's denial caused the Panel Chairman to state in the 
ASAP's 2014 Annual Report that ``the Panel is unable to offer 
any informed opinion regarding the adequacy of the 
certification process or the sufficiency of safety in the 
Commercial Crew Program (CCP) due to constraints on access to 
needed information.''
    Clearly, this is troublesome.
    If NASA is to convince Congress that the two commercial 
crew transportation systems are safe, it must provide ASAP with 
information, by which the Panel can make objective assessments.
    Mr. Chairman, I recognize that NASA and its two contractors 
have much work to do. The nation needs their important 
contributions to the space program.
    I hope we can continue this dialogue through future 
hearings as part of the open communications that must form the 
basis of trust and transparency in this government-industry 
partnership.
    Thank you Mr. Chairman and I yield back.

                                 [all]
</pre></body></html>
